Before the Committee on Commerce, Science, and Transportation
Subcommittee on Surface Transportation and Merchant Marine
United States Senate



For Release on Delivery
Expected at
10:00 a.m. EST
                          Reauthorization of
                          TEA-21 Safety Programs
Tuesday
April 5, 2005
CC-2005-024




                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
                                                                                   1

Mr. Chairman and Members of the Subcommittee:

Thank you for inviting us to testify today as the Subcommittee begins
deliberations on the reauthorization of the safety programs in the Transportation
Equity Act for the 21st Century (TEA-21). You have asked us to discuss highway
and motor carrier safety, hazardous materials safety, and household goods
transportation fraud.

Our testimony today will draw from our body of audit work and criminal
investigations. We also want to advise the Subcommittee that we have several
safety audits under way, including one on alcohol-impaired driving and another on
implementation of the Motor Carrier Safety Improvement Act of 1999, which was
required by Congress.

Given the challenges they have faced, two agencies dealing with highway safety—
the Federal Motor Carrier Safety Administration (FMCSA) and the National
Highway Traffic Safety Administration (NHTSA)—have, overall, made good
progress. Specifically, the highway fatality rate has decreased 6.3 percent, from
1.58 deaths per 100 million vehicle miles traveled in 1998 to 1.48 in 2003, the
most recent year for which figures are available.

The absolute number of deaths has increased 2.8 percent, from 41,501 in 1998 to
42,643 in 2003. The number of large-truck-related fatalities decreased in every
year from 1998 to 2002 but increased slightly in 2003. But the number of
highway vehicle miles traveled increased 9.8 percent from 2.6 trillion to
2.9 trillion in the same period. This explains why the fatality rate has decreased as
the absolute number of deaths increased.

These successes can be attributed to the increased attention given to highway
safety, including Congress’ creation of FMCSA in 1999; its passage of the
Transportation Recall Enhancement, Accountability, and Documentation
(TREAD) Act in 2000; NHTSA’s attention to seat belt use and potential vehicle
and equipment safety defects; and FMCSA’s efforts to increase enforcement and
complete important rulemakings.

Funding for highway safety improvement increased more than 50 percent during
the five-year period from 1998 to 2003. But the fatality trends have essentially
flattened during that period (as Figures 1 and 2 illustrate).

The Department has established a goal to reduce the overall highway fatality rate
to one death per 100 million vehicle miles traveled by 2008. Meeting the
Department’s goals will require a decrease in 5 years that is almost twice the
decrease that was accomplished in the previous 11 years.
                                                                                                                                                                  2

               Figure 1. Funding and Fatality Trends                                                        Figure 2. Actual and Targeted
                          Highway Safety                                                 Highw ay               Highway Fatality Rate
Funding                                                                                  Fataility Rate      (100 Million Vehicle Miles Traveled)
(Millions)    Funding Source: TEA-21 Authorized Highway Safety,
                                                                            Fatalities      2.00
              Motor Carrier Safety and Safety Incentives
 $800                                                                         50,000

                                                                              40,000        1.50
 $600

                                                                              30,000
                                                                                            1.00
 $400
                                                                              20,000

 $200                                                                                       0.50
                                                                              10,000
                            Funding             Traffic Fatalities                                                 Actual Fatality Rate           Target Rates
   $0                                                                         0             0.00
             1998    1999       2000          2001      2002         2003                            2001   2002    2003    2004    2005   2006    2007    2008
                                       Year                                                                                     Year
 Source: NHTSA
                                                                                          Source: NHTSA




While they will be difficult to achieve, accomplishing the Department’s goals
would save about 31,000 lives between 2004 and 2008, assuming that vehicle
miles traveled remain constant. This would lower annual deaths by an average of
about 6,200 lives, a significant decrease in the more than 42,000 annual deaths.
Acting on the following items will help the Department to achieve these goals.

      • Use covert methods to reveal Commercial Drivers License (CDL) fraud
        and ensure that truck drivers who obtained their CDLs from
        examiners suspected of fraud obtained their licenses properly. We
        have found far too many CDL fraud schemes—in 23 states—and identified
        more than 8,000 drivers who had obtained their CDLs through state
        employees or “third-party examiners” suspected of fraud. Although some
        of these drivers were retested, FMCSA should require states to ensure that
        all of those drivers are properly qualified. We have recommended that
        FMCSA also require states to adopt effective CDL counter-fraud methods,
        including covert test methods, which includes having police officers pose
        as applicants. These methods have been successfully used in Pennsylvania
        and Georgia, and should be required in all states.

              We have also recommended that when corrupt examiners are caught, the
              holders of CDLs approved by those examiners be retested. FMCSA
              officials recently advised us that they are assessing whether it has the
              regulatory authority to order states to use covert counter-fraud methods and
              retest suspect CDL holders. If FMCSA determines that it does not have the
              authority, it should seek that authority from Congress.

      • Strengthen state enforcement of laws that bar Mexican trucks from
        operating in the United States without proper authority. These trucks
        can now operate in the United States in only limited ways, primarily in the
        commercial areas along the border. Mexican companies seeking to operate
        in the United States under new privileges granted by the North American
                                                                                3

   Free Trade Agreement (NAFTA) are required to obtain operating authority
   from FMCSA. The agency will grant operating authority only to those
   Mexican companies that meet detailed safety-related requirements.
   Opening of the border has been delayed. But even before the border has
   opened, records indicate that state inspectors have already found more than
   100 Mexican trucking companies operating illegally in the interior United
   States.

   In August 2002, FMCSA issued an interim final rule requiring state
   inspectors to place out of service any commercial vehicle operating without
   authority or beyond the scope of their authority. However, in January
   2005, we reported that gaps still exist in implementing and enforcing this
   rule. Five states still need to adopt rules to enforce operating authority, and
   some of the states that have adopted the rules are not placing trucks out of
   service when found operating without authority, because operating without
   authority is not one of the Commercial Vehicle Safety Alliance’s (CVSA)
   North American Inspection Standards out-of-service criteria.

   CVSA is an association of state and Federal officials responsible for the
   administration and enforcement of motor carrier safety laws. According to
   CVSA, the term “out of service” is intended to refer to vehicles that “by
   reason of its mechanical condition or loading would likely cause an
   accident or breakdown.” Training and guidance for state officials on the
   operating authority issue is also a problem.

   In its response to our January 2005 report, FMCSA stated that it will
   continue to communicate with all states and encourage timely adoption and
   full enforcement of its August 2002 rule, which it considers to be clear and
   unambiguous. However, if this issue continues to present an obstacle to
   implementation of the rule, FMCSA will need to take further action to
   ensure that, notwithstanding CVSA’s view of when vehicles may be placed
   out of service, the states consistently implement FMCSA’s rule.

• Increase enforcement of egregious violations of Hours of Service
  regulations. Hours of Service regulations are aimed at preventing
  accidents caused by fatigued commercial drivers. The regulations prescribe
  a limit on the number of hours that a commercial driver can be behind the
  wheel. Simply put, the key provision in the regulations currently in effect
  limit consecutive hours of driving time to 11 hours, and this regulation
  expires in September 2005. The previous limit was 10 hours.

   The Subcommittee should know that regardless of the limits in place, there
   will be unscrupulous operators who will violate the rule and drive
   20 consecutive hours or more. We have conducted criminal investigations
                                                                               4

   of egregious cases in which trucking company officials have been
   prosecuted for systematically forcing their drivers to drive well in excess of
   the limits.

   In one case, a California trucking company that repeatedly had been fined
   by FMCSA for Hours of Service violations was involved in an accident in
   Arizona that killed a father and son and injured six other people. The
   company, its two owners, and 11 employees have been indicted on Federal
   criminal charges. The indictments charge that the company had encouraged
   its drivers to falsify their log books. Our investigation disclosed that the
   driver involved in the Arizona fatality had been behind the wheel for
   19 hours, and that his log book falsely reflected he was in the sleeper berth
   at the time of the accident.

   Unscrupulous trucking companies and drivers view FMCSA’s fines for
   Hours of Service and log book violations simply as a cost of doing
   business. Current penalties and enforcement methods can be further
   strengthened to deter this offense. We note that at one time, FMCSA
   proposed that all trucks be required to have onboard electronic devices that
   would record driving time and provide key evidence for enforcement
   efforts. FMCSA rescinded that proposal, but the courts have directed
   FMCSA to review the decision to rescind it. If ultimately FMCSA does not
   require recorders, it needs to develop additional strategies to deter Hours of
   Service violations. For example, one way would be to eliminate FMCSA’s
   distinction between a missing or incomplete log book and possessing a
   false log book, which carries a fine up to 10 times higher than a missing log
   book. Another would be to eliminate an FMCSA policy that restricts
   inspectors’ use of data from a trucking company’s GPS or onboard
   recording device to check for Hours of Service violations during
   compliance audits.

• Refocus funds to reduce drunk driving. Driving while under the
  influence of alcohol continues to be one of the largest highway safety
  problems in the nation, with an estimated 40 percent of all highway
  fatalities (more than 17,000 deaths in 2003 alone) considered to be alcohol-
  related. We agree with the Administration’s proposal to focus new funding
  resources on up to 10 states that have an especially high number of alcohol-
  related fatalities.
• Increase the use of seat belts. NHTSA and the states have been effective
  in increasing the national seat belt use rate from 70 percent in 1998 to an
  estimated 80 percent in 2004. The number of states with primary seat belt
  laws increased from 19 in 1998 to 21 (plus the District of Columbia and
  Puerto Rico) in 2004. NHTSA estimates that for each 1 percent increase in
                                                                               5

   seat belt use, 270 deaths and 4,400 serious injuries are prevented each year.
   A key tool in this effort is the primary seat belt law, which allows police to
   stop and ticket a motorist solely for not wearing a seat belt. We agree with
   the Department’s proposal to reward states that enact the primary seat belt
   law or show significant improvement in their rate of seat belt use.
• Increase the use of motorcycle helmets. Annual deaths from motorcycle
  accidents increased 60 percent, or by 1,367 deaths, from 1998 to 2003.
  This is one of the few areas where there is still “low-hanging fruit” that can
  advance progress toward achieving safety goals. In 2003, only 20 states,
  the District of Columbia, and Puerto Rico require helmets for all riders. In
  four states that repealed helmet use laws for adults—Arkansas, Texas,
  Louisiana, and Kentucky—motorcycle operator deaths increased (in August
  2004, Louisiana re-enacted a universal helmet law).

   In a crash, a helmet-less motorcyclist is 40 percent more likely to suffer a
   fatal head injury and 15 percent more likely to suffer a nonfatal injury than
   a helmeted motorcyclist.        In 2003, 3,661 motorcyclists died and
   approximately 67,000 were injured in highway crashes in the nation.
   NHTSA estimates that helmets saved the lives of 1,158 motorcyclists in
   2003, and that if all motorcycle operators and passengers had worn helmets
   that year, another 640 lives would have been saved.

   In addition to lives lost, a key issue in the debate over helmet laws are the
   medical costs that could be avoided with helmet use. One NHTSA study
   estimated that in 2002 motorcycle helmet use resulted in $1.3 billion in
   savings. An additional $853 million would have been saved if all
   motorcyclists had worn helmets. Another NHTSA study of motorcycle
   accidents in Missouri, New York, and Pennsylvania estimated that without
   a mandatory helmet law, inpatient medical costs for brain injuries would be
   almost twice as much.

• Detect vehicle and equipment defects more effectively. In September
  2000, Congress held hearings to determine why NHTSA, Firestone, and
  Ford did not identify tread separation defects sooner to prevent the
  numerous deaths and injuries associated with Ford Explorers equipped with
  defective Firestone tires. During the hearings, Congress noted that the data
  available to NHTSA’s Office of Defects Investigation (ODI) were
  insufficient, and that ODI did not use the data it did possess to spot trends
  related to failures in these tires. To address these concerns, Congress
  passed the TREAD Act in October 2000.

   Its purpose was to create new equipment standards and ways for the
   automobile industry and the Department to discover safety defects more
                                                                             6

   quickly.    NHTSA has implemented all of the TREAD Act’s 22
   requirements, and completed a new safety defects system called the
   Advanced Retrieval (Tire, Equipment, Motor Vehicle) Information System
   (ARTEMIS). This system was created to analyze the large volume of early
   reports of defects from manufacturers and consumers, to identify defects
   that require further investigation and possible recall. In a 2002 audit we
   reported that ODI received an average of 34,000 complaints a year directly
   from consumers, and manufacturers received an even larger number.

   In September 2004, we reported that ARTEMIS had cost and schedule
   overruns early in its development. In addition, the computer system cannot
   yet link deaths to an alleged defect, or identify relationships between
   disparate categories of information, such as a consumer complaint and the
   filing of a warranty claim.

   Until these capabilities are implemented, analysts will not be able to fully
   utilize the information to help them find safety defect trends and subtle
   relationships in the large volume of data it receives. NHTSA is working to
   improve the system and has set milestones for adding the analytical
   capability and for completing training of staff to use the system by October
   2005. It is important that the agency follow through on implementing those
   capabilities and that it determine the reasons why the number of vehicle
   recalls has been increasing. According to NHTSA, the number of vehicle
   recalls, whether voluntarily or by action of the government, has increased
   from 265 in 1995, to 541 in 2000, and to 602 in 2004.

• The creation of the Pipeline and Hazardous Materials Safety
  Administration is a good opportunity for this new agency to have an
  effect similar to that of FMCSA. PHMSA faces three imperatives. One
  is to focus attention on safety and security for the more than 3 billion tons
  of regulated hazardous materials that move nationally in more than
  292 million shipments each year. Hazardous materials is an area where
  safety and security intersect in significant ways. PHMSA must develop
  new ways to identify vulnerabilities of hazardous materials shipments to
  negligence, intentional violations, and terrorist attack. The intersection of
  safety and security was particularly evident in the train derailment in South
  Carolina in January 2005 that leaked chlorine, killing nine people and
  injuring hundreds. While preliminarily attributed to human error, the train
  derailment also has revealed security vulnerabilities involving manually
  controlled switches.

   A second imperative for PHMSA is to coordinate hazardous materials
   regulatory issues with other agencies in the Department of Transportation
   and coordinate hazardous materials security issues with the Department of
                                                                                7

   Homeland Security (DHS). In the past 5 years, success in achieving
   Department-wide objectives to facilitate hazardous materials regulatory
   issues has been limited, due primarily to each modal administration
   separately administering its hazardous materials program. Coordinating
   hazardous materials security issues with DHS is never more evident than
   with the responsibility to secure the U.S. transportation system and protect
   its users from criminal and terrorist acts, especially in the area of hazardous
   materials safety oversight and enforcement. A third imperative for
   PHMSA is to lead and coordinate efforts to complete eight outstanding
   hazardous materials-related mandates and 23 outstanding hazardous
   materials-related National Transportation Safety Board recommendations
   throughout the Department that are long overdue. One outstanding
   recommendation is to act with the Federal Railroad Administration to
   create fracture resistance standards for rail tank cars carrying dangerous
   chemicals such as chlorine.

• Protect consumers from fraud perpetrated by unscrupulous household
  goods moving companies. Although it is not safety-related, household
  goods moving fraud is a serious problem, with thousands of victims who
  have fallen prey to these scams across the country. Typically, an
  unscrupulous operator will offer a low-ball estimate and then refuse to
  deliver or release the household goods unless the consumer pays an
  exorbitant sum, often several times the original estimate. In one case, for
  example, a New York husband and wife in their seventies were quoted a
  price of $2,800 to move their household goods to Florida. Once the movers
  had loaded about half of the goods, the foreman advised the couple that
  unless they paid the new price of $9,800 they would never see their
  property again. Fearing that the moving crew might physically hurt them,
  the couple paid the vastly inflated price.

   Since 2000, our office has investigated allegations of fraud associated with
   approximately 8,000 victims, involving more than 25 household goods
   moving companies. FMCSA data reflects that since 2001, consumers have
   filed over 10,000 official complaints via its hotline against household goods
   movers, including about 2,500 complaints that accuse movers of
   overcharging, providing misleading and inaccurate estimates, and other
   serious tariff violations.

   Until this year, FMCSA had dedicated one full-time investigator for
   household goods complaints. Because of Congressional concern over the
   increase in fraud, FMCSA received an increase in funding in FY 2004 to
   hire 10 additional investigators. It has also cross-trained other safety
   inspectors to support its household goods investigation efforts. FMCSA’s
                                                                               8

      goal is to conduct 300 investigations by the end of FY 2005, compared to
      just over 30 conducted in FY 2004. Clearly, this is an area where stronger
      sanctions and authorities are needed to leverage the limited resources
      available to respond to the steadily increasing volume of complaints of
      fraud and abuse in the household goods moving industry.

      The House version of TEA-21 reauthorization (H.R. 3), which passed last
      month, contains important provisions to strengthen enforcement in this
      area, including greater civil penalties and ensuring that states have the
      authority to take enforcement action, under Federal regulations, against a
      company operating in interstate commerce. Also, significantly, H.R. 3
      creates a specific Federal felony of holding goods hostage and sets 2 years
      imprisonment per count as the maximum penalty, but this is relatively low
      for a felony. We recommend that the maximum penalty be at least 5 years
      imprisonment, to fall in line with most other Federal felonies, given the
      underlying nature of the crime, which really is extortion.

This concludes our testimony. Thank you for inviting us to testify here today. We
would be glad to answer any questions that you have.
